No. 19-1186
IN THE

~upreme QCourt of tbe ffiniteb ~tates
JOSHUA BAKER, in his official capacity as Director , South Carolina Department of
Health a nd Human Services,

Petitioner,
v.

J ULIE EDWARDS, on her behalf and on behalf of all other s similarly sit uate d, et al.

Respondents.

PROOF OF SERVICE

I, John J . Bursch, counsel for Petitioner and a member of the Bar of this Court,
certify that on this 8th day of October , 2020, I caused this Supplemental Brief for
Petitioner to be ser ved by electronic means on the following:
Alice Clapman
Planned P arenthood Federation of America
1110 Vermont Ave, NW"
Suite 300
Washington, DC 20005
alice.clapma n@ppfa.org
I further certify that all parties required to be served h ave been served.

Executed on October 8, 2020

